<html>
<title> - U.S.-INDIA RELATIONS UNDER THE MODI GOVERNMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             U.S.-INDIA RELATIONS UNDER THE MODI GOVERNMENT

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2014

                               __________

                           Serial No. 113-203

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
88-834                   WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 
SEAN DUFFY, Wisconsin--
    added 5/29/14 
CURT CLAWSON, Florida--
    added 7/9/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana--5/20/14        WILLIAM KEATING, Massachusetts
    noon 
CURT CLAWSON, Florida--
    added 7/9/14 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Nisha Biswal, Assistant Secretary, Bureau of South 
  and Central Asian Affairs, U.S. Department of State............     8
The Honorable Arun Kumar, Director General of the U.S. and 
  Foreign Commercial Service and Assistant Secretary for Global 
  Markets, International Trade Administration, U.S. Department of 
  Commerce.......................................................    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nisha Biswal: Prepared statement...................    11
The Honorable Arun Kumar: Prepared statement.....................    18

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................    42
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    45


             U.S.-INDIA RELATIONS UNDER THE MODI GOVERNMENT

                              ----------                              


                        THURSDAY, JULY 24, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 4 o'clock p.m., 
in room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order.
    We would like to welcome everyone here and apologize for 
starting about an hour later than we were scheduled. We had a 
whole series of votes that started at the time that our 
committee was scheduled to start. So, we apologize for any 
inconvenience to anyone.
    I want to start out the meeting by saying how pleased we 
are to have our Eni back. He is looking great, and we are 
certainly pleased to have him representing the other side in 
these hearings. Whereas, some committees, they can be at each 
other's throats, in this committee we tend to get along. Even 
if we don't necessarily agree, we do it in a nice manner. But 
we generally do agree on a lot of things. We are really, really 
happy to have Eni Faleomavaega back and we wish him great 
health for many years to come. And I think Ami, all kidding 
aside, did a very good job filling in while he was not here--
really a commendable job--thank you so much, Ami, for filling 
in.
    I also want to thank our distinguished witnesses for being 
here today to discuss a relationship of great importance and a 
country that has a great impact on the national security 
interests of the United States, not only in Asia, but in other 
parts of the world as well.
    India is a nation of 1.2 billion people, and sometime in 
the very near future will, in all likelihood, be the most 
populous nation on earth, replacing China, and certainly is the 
powerhouse of South Asia. It has also been called an 
indispensable partner of the United States. This year marks the 
tenth anniversary of the U.S.-India Strategic Partnership, 
launched on January 2004 by President Bush. Over the last 10 
years, we have seen this bilateral relationship evolve, and 
today, India is the 18th largest export market for the United 
States and U.S. direct investment in India has grown over 300 
percent during that time. It is expected that annual bilateral 
trade between our two countries could increase by fivefold over 
the next 10 years.
    In April and May, India conducted the largest democratic 
exercise in history. The outcome of this election was historic 
because the former opposition Indian People's Party, the BJP, 
became the first party to win a majority of India's lower 
chamber of Parliament since 1984 and became the first non-
Congress Party to rule India's Federal Government without 
coalition partners. In addition, Mr. Modi is now the first 
lower-caste Prime Minister, the first born after the country's 
1947 independence, and the first to not have been previously 
embedded within New Delhi's political class. We are all hopeful 
that the new administration will seize upon this opportunity to 
work with the United States in reinvigorating bilateral ties 
and building a more dynamic partnership.
    Assistant Secretary Kumar--I think your presence here this 
afternoon is reflective of how important trade and investment 
are for the future of the U.S.-India relationship. Prime 
Minister Modi faces the daunting mission of reviving the Indian 
economy and taking steps to encourage private-sector growth. I 
am hopeful that his strong positions on trade and business 
development will help achieve this.
    Initiatives to spur development in India are critical, and 
the U.S. can play a significant role in promoting and 
facilitating modernization efforts. U.S. businesses continue to 
face severe barriers including patent revocations, compulsory 
licenses, and copyright piracy, among other things. This is 
coupled with concerns about market access, caps on foreign 
direct investment, and stalled bilateral investment treaty 
negotiations. I hope we can hear how the administration plans 
to address these ongoing trade challenges, especially at the 
U.S.-India Strategy Dialogue next week.
    I am also hopeful that Mr. Modi's resolve to implement a 
more assertive foreign policy will foster further geopolitical 
alignment and cooperation between our two nations because at 
the end of the day, U.S.-India strategic interests do converge 
more than they conflict. On the positive side, India's 
deepening relations with Japan pave the way for possible 
collaboration on efforts to respond to China's unilateral 
actions in the East and South China Seas. On the other hand, 
India's relationship with Russia and implicit support of 
Russian ambitions in Ukraine are concerning. I hope, Ms. 
Biswal, you can touch on this particular issue.
    Many of my colleagues are also concerned about the 
persecution of religious minorities in India--largely Christian 
and Muslim groups--and repeated reports about discrimination 
against women. India has seen a 30-percent increase in 
incidents of communal violence since 2012, which has resulted 
in over 133 deaths. I hope the new Modi government makes it a 
priority to effectively address communal violence against all 
religious groups and adequately punishes rampant sexual abuse. 
Short of doing so, these human rights issues will only continue 
to impede efforts to modernize India's economy and expand 
opportunities for its poverty-stricken population.
    As the Obama administration establishes a plan for future 
cooperation with India, it needs to take a leadership role in 
building upon U.S.-India mutual strengths, finding ways to 
advance mutual trust, and doing a better job at helping India 
integrate into the international system.
    While the ``Indo-Pacific Economic Corridor'' and ``New Silk 
Road'' are credible initiatives aimed at better integrating 
India with the rest of Asia, they cannot be our only efforts to 
do so. India must play a more prominent role in the 
administration's rebalance policy toward Asia because the 
challenges we face in the East and West do not stop at any one 
country's border. The new Modi administration offers us the 
chance to change this--to deepen cooperation across the 
spectrum that will harvest the region's ability to better 
maintain freedom of navigation, prevent the spread of 
terrorism, and inhibit the proliferation of nuclear weapons.
    Prime Minister Modi's scheduled visit to the U.S. in 
September acknowledges the importance a strong U.S.-India 
relationship can play in our future engagement. I hope Prime 
Minister Modi can address and deliver on the promised reforms 
that are needed to strengthen ties between our two countries. 
And I urge the administration to be proactive in driving 
efforts to tackle the most salient issues that negatively 
affect U.S. economic and regional security interests. I again 
thank the witnesses for being here and look forward to their 
testimonies.
    I would now like to turn to the gentleman from American 
Samoa and welcome back Eni Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    As India's newly-elected Prime Minister Narendra Modi said, 
``Good days are coming.'' And I agree.
    I am grateful to our Heavenly Father for the good days and 
good friends. I would be remiss if I did not take this 
opportunity to personally thank you, Mr. Chairman and Mr. Bera, 
for your support, your thoughts and prayers during my time of 
recovery. I also thank the members of our subcommittee as well 
as my colleagues in the House. I am grateful to each of you and 
very grateful to be back working with you on important issues 
facing our country and the regions of Asia and the Pacific.
    I believe together we still have a difference to make. And 
so, I thank you, Mr. Chairman, for holding this important 
hearing at my request on U.S.-India relations under India's 
newly-elected Prime Minister, my good friend Narendra Modi.
    History will remember India's 2014 elections this year as 
unprecedented. I will remember the 2014 elections as an epic 
triumph because, on May 16, 2014, in the most historic election 
since India's independence, Shri Modi won India in a landslide 
victory that gave Shri Modi the most decisive mandate for an 
Indian Prime Minister in three decades, despite the United 
States using every recourse it could to disrupt his destiny.
    No doubt Prime Minister Modi's destiny is to lift up the 
masses, assure social justice, and bring new hope for any and 
all who, like him, step forward and transform changes and 
challenges into opportunities by sheer strength of character 
and courage.
    Prime Minister Modi's victory is India's victory. It is our 
victory, too. And I join with the good people of India and our 
Indian-American community throughout the United States in 
celebrating a new dawn of development for all.
    Our U.S.-India partnership should be, could be, one of the 
most defining of the 21st century. But it is shameful that our 
Government, yes, the United States, failed to develop a strong 
friendship and comprehensive partnership with Shri Modi when it 
mattered most.
    I thank Prime Minister Modi for accepting President Obama's 
invitation to meet at the White House on September 30th of this 
year. Prime Minister Modi's willingness to put the past in the 
past is a testament to his track record of good governance. He 
is a selfless leader who puts India and some 1.3 billion 
Indians first.
    In recognition of his visit to our nation's Capitol, I join 
with my colleagues in calling upon the Speaker John Boehner and 
Senator Majority Leader Harry Reid to invite Prime Minster Modi 
to address a Joint Session of the U.S. Congress. I commend the 
co-chairs of the House Caucus on India and Indian Americans and 
their counterparts in the Senate, and also my good friends 
Congressman Brad Sherman, Congressman Ami Bera, Mr. Sanjay Puri 
of the Alliance for Indian-American Business, and all those who 
are working together for this purpose.
    I also thank Mr. Puri for introducing me to Shri Modi in 
2010, 4 years ago. In 2010, Shri Modi was Chief Minister of 
Gujarat and I was chairman of this subcommittee. I flew to 
Gujarat to meet the Chief Minister at that time at his 
residence. I knew then what I know now: Shri Modi is dedicated, 
he is determined, he is dynamic, he is different. He is the key 
player for improved relations between the United States and 
India.
    Today he is the leader of the world's largest democracy, 
and I have every confidence he will cut across caste, creed, 
and religion, and bring alive the dreams of over 1 billion 
Indians in a world that needs his leadership. As a man of 
vision and action, he, together with each and every citizen of 
India, will create something special, an India of sustainable 
development and inclusive growth and an India that will 
rightfully assume its place in the political and economic 
affairs of the world.
    You can be assured Prime Minister Modi will usher in 
India's new era, and the United States would be wise to support 
his goals. India will not be threatened, nor be intimidated by 
any country. India will deepen partnerships regionally and 
globally in areas of defense, nuclear energy, space research, 
and trade and investment. India will also invest heavily in 
infrastructure, affordable housing, healthcare, education, and 
clean energy. India will advance the interests of the 
developing world and lead the way in establishing a new model 
for maintaining stability without constraining growth. Prime 
Minister Modi will devote it all to eradicate poverty.
    Good days are coming, Mr. Chairman. Don't matter the 
pundits and critics who have too long maligned Shri Modi and 
his supporters.
    And so, once more, I congratulate Shri Modi on his path-
breaking campaign, and I praise BJP Party President Singh for 
working shoulder-to-shoulder with Shri Modi to ensure that the 
spirit of democracy has triumphed.
    I also commend Mr. Puri for championing the cause, the work 
of Shri Modi in Congress, at a time when others were not 
courageous enough, and for holding firm even though he was also 
unjustly and wrongfully maligned.
    Above all, Mr. Chairman, I praise Prime Minister Modi for 
his beginning as a son of a tea seller to a groundbreaking 
victor. I wish Shri Modi every success in his historical 
journey forward as the Prime Minister that the people of India 
have long awaited.
    I yield back. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    We will now turn for 1 minute to other members who may want 
to make a statement. I will go first to Dana Rohrabacher, the 
gentleman from California, who is also the chairman of the 
Europe, Eurasia, and Emerging Threats Subcommittee.
    Mr. Rohrabacher. First and foremost, welcome back, Eni. We 
are grateful that you are here with us today, and that is a 
very good sign that we are having a hearing about our relations 
with India and talking about what good friends can accomplish 
together, because Eni and I have been working together for 
about 26 years now. And I feel that our friendship has helped 
us both accomplish some of the goals we have set out.
    The same will be true with the United States and India. If 
there is any chance for prosperity, if there is any chance for 
peace and stability in large sections of this world, it will be 
due to a cooperative spirit and a positive relationship with 
India.
    Mr. Modi is a breath of fresh air. Let me just note, Mr. 
Chairman, that we face serious challenges from folks who do not 
mean us well or mean the Western World well, when radical Islam 
and China and our central enemies happen to be the central 
enemies that India faces as well. We need to work together to 
create peace, work together to build the standard of living of 
the people of India and enriching our own prosperity at the 
same time.
    So, with that said, I look forward to working with Eni and 
with you, Mr. Chairman, to achieve those goals and build a 
better relationship with India.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired.
    The gentleman from California, Mr. Bera, is recognized for 
a minute to make a statement. We want to again thank him for so 
ably filling-in for Eni during his absence.
    Mr. Bera. Thank you, Mr. Chairman.
    Again, I will echo all the sentiments. I can't fill Eni's 
shoes, but it is great to see you back.
    It is also great to see Assistant Secretary Biswal back 
before this committee and my fellow Californian and good 
friend, Assistant Secretary Kumar. It is good to see you there 
as well.
    As an Indian-American Member of Congress and a Gujarati-
American Member of Congress, this is an exciting time. I mean, 
there is a real time of opportunity, and I look forward to our 
realizing that full potential.
    The last decade certainly showed us what was possible, and 
there is a real opportunity now for us to take this partnership 
to the next level. Both economically and geopolitical, India's 
importance is emerging in a very present way. If we do this 
right and we take the long view on this relationship, we really 
have an opportunity, as the President has said, to make this 
the defining relationship of the 21st century.
    So, Mr. Chairman, I yield back.
    Mr. Chabot. Thank you. The gentleman yields back.
    The gentleman from Pennsylvania, Mr. Perry, is recognized 
to make an opening statement.
    Mr. Perry. Thank you, Mr. Chairman.
    Thank you, folks, for being here.
    I see the great opportunities in the coming years for the 
bilateral relationship between the United States and India both 
militarily and economically. Of particular note is the immense 
opportunity for foreign military sales, as India is planning to 
spend up to $100 billion over the next decade to update its 
mostly Soviet Era military arsenal.
    This year marks the tenth anniversary of the U.S.-India 
Strategic Partnership, which was launched in January 2004 by 
then-President George Bush. I look forward to hearing an 
assessment from our distinguished witnesses of this bilateral 
relationship over the past decade and how they see this 
relationship evolving over the coming decades.
    And I yield back.
    Mr. Chabot. Thank you. The gentleman yields back.
    The gentleman from California, Mr. Sherman, is recognized 
for 1 minute, he is also the ranking member of the Terrorism, 
Nonproliferation, and Trade Subcommittee.
    Mr. Sherman. Thank you.
    It is great to have Eni back.
    Thank you for distributing these CDs. And let me assure my 
colleagues that I will not be putting out anything similar. 
[Laughter.]
    Mr. Chabot. Noted for the record here.
    Mr. Sherman. We have just seen an election in India in 
which some 550 million people participated. That is the 
greatest exercise of the franchise in the history of the world.
    For that and so many other reasons, Mr. Faleomavaega, Mr. 
Poe, and myself have been circulating a letter--we now have 84 
of our colleagues to join us in the effort--to congressional 
leadership saying that we ought to have Mr. Modi address a 
Joint Session of Congress.
    Finally, as to the nuclear agreement, I will hope to learn 
in these hearings whether India will adopt the liability 
protections that will allow American companies to participate. 
In light of Bhopal, I can see why that might be politically 
difficult in India. But, as a practical matter, India will 
benefit from the additional competition to allow U.S. companies 
to compete along with those companies that already enjoy 
sovereign immunity.
    And I yield back.
    Mr. Chabot. Thank you. The gentleman yields back.
    The gentleman from North Carolina, Mr. Holding, is 
recognized for 1 minute.
    Mr. Holding. Thank you very much, Mr. Chairman.
    There can be no question that now is the time for relations 
between the United States and India to be taken to the next 
level. Having visited India just last year, I have no doubt 
that the U.S.-India relationship can be made into one of the 
defining partnerships of this century. Joining up the Modi 
magic with the American dream would be a very powerful 
combination worldwide.
    Mr. Chairman, with any partnership there is always room for 
improvement. For the United States and India to fully recognize 
the opportunity that exists right now, progress must be made to 
address concerns with India's intellectual property system and 
other domestic laws and requirements that have been a concern 
for a number of U.S. companies doing business there.
    And for our part, Mr. Chairman, Congress must reject ill-
conceived immigration proposals in the Senate that would harm 
successful collaboration between the U.S. and India companies. 
We must also mend relations with the Prime Minister that were 
damaged with the denial of his visa prior to being elected.
    It is not a small secret, Mr. Chairman, that our 
relationship with India over the last few years has not been as 
engaged as it could be or should have been. And I look forward 
to discussing what steps we can take to remedy this and capture 
the opportunity presented to us here for a new day with India 
and the United States.
    Thank you, and I yield back.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired.
    I would also like to thank our newest member of this 
committee, Curt Clawson, who is from the 19th district of 
Florida, speaks four languages, and all kinds of other great 
stuff. I will now yield to the gentleman either to talk about 
India or, if you would like to, talk about yourself. You have 1 
minute.
    Mr. Clawson. This is a Samoan CD. I would say my favorite 
movies from foreign are Telugu, Film Nagar, Hyderabad. I went 
to school with Nagarjuna. I know Jagapathi. And these are my 
friends. I love Hyderabad. I love Chennai. And I am very 
familiar with your country.
    I have also run businesses with Mr. Kalyani in Bharat 
Forge, three factories for a joint venture in Pune.
    I am familiar with your country. I love your country, and I 
am hopeful with the new change in regime that the future and 
the land of promise and the land of opportunity of India can 
finally become so.
    And I understand the complications of so many languages and 
so many cultures and so many histories, all rolled up in one. 
But this is an awesome country with awesome potential and 
somebody that we need to be friends with and that we can trust, 
not just for security, but what is also important to me is for 
economic development. As was said earlier, technology and 
technology protection is I think a big issue in that.
    So, I am enthusiastic about working with you all, and 
anything that I can do to make the relationship with India 
better, I am willing and enthusiastic about doing so.
    Thank you. I yield back.
    Mr. Chabot. Thank you very much.
    I will now introduce the panel, the distinguished panelists 
this afternoon, both of whom really need no introduction, but I 
am going to do it anyway.
    Nisha Biswal was sworn in as Assistant Secretary of State 
for South and Central Asian Affairs last October. Previously, 
Ms. Biswal served as the Assistant Administrator for Asia at 
USAID. During Ms. Biswal's tenure USAID reopened its mission in 
Burma and transitioned its programs in various countries to 
global partnerships in development cooperation. Ms. Biswal also 
worked in the Office of U.S. Foreign Disaster Assistance and 
the Office of Transition Initiatives, and served as Chief of 
Staff in the Management Bureau while at USAID. Before USAID, 
Ms. Biswal served as the majority clerk for the House 
Appropriations Foreign Operations Subcommittee and as 
professional staff for the House Foreign Affairs Committee, 
where she was responsible for South Asia. Ms. Biswal has also 
worked at InterAction and at the American Red Cross, where she 
served as the International Delegate in Armenia, Georgia, and 
Azerbaijan. And we welcome you back to the committee.
    I would also like to introduce Arun M. Kumar. Mr. Kumar has 
served as Assistant Secretary of Commerce for Global Markets 
and Director General of the U.S. and Foreign Commercial Service 
since March of this year. In this role, he leads the trade and 
investment promotion efforts for the U.S. Government. Mr. Kumar 
has extensive global experience in the business world. Prior to 
his nomination, he was a partner and member of the Board of 
Directors at KPMG, LLP. He led the firm's West Coast Management 
Consulting practice, serving major global clients as well 
emerging Silicon Valley ventures. He also found and led KPMG's 
U.S.-India practice. Previously, Mr. Kumar was a Silicon Valley 
entrepreneur and has acted as a mentor and advisor to several 
new ventures in Silicon Valley and India. He has served on the 
advisory councils at Stanford University and the University of 
California, Santa Cruz, and he is on the Board of Directors of 
the U.S.-India Business Council.
    We welcome you here this afternoon, Mr. Kumar.
    I know both of the witnesses are familiar with the 
committee rules. You both will have 5 minutes. There is a 
lighting system. The yellow light will let you know you have 1 
minute. When the red light comes on, we would ask you to wrap 
up as closely as possible. We do give a little leeway, but not 
much.
    So, Ms. Biswal, you are recognized for 5 minutes.

 STATEMENT OF THE HONORABLE NISHA BISWAL, ASSISTANT SECRETARY, 
 BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ms. Biswal. Thank you very much, Mr. Chairman.
    Chairman Chabot, Ranking Member Faleomavaega, thank you for 
having this hearing and inviting me to testify today.
    I want to just echo the sentiments on the dais about how 
wonderful it is to see you again sitting on the dais, Mr. 
Faleomavaega.
    It is a wonderful time to have this hearing and an 
important time to have this hearing. I am glad to be here with 
my good friend Arun Kumar.
    In the interest of time, I am going to summarize the points 
which all of you have made so eloquently on the importance of 
the relationship and the opportunity we have, and ask that my 
full statement be entered for the record.
    Mr. Chabot. Without objection, so ordered.
    Ms. Biswal. Thank you, Mr. Chairman.
    There is no better time than now to reexamine the U.S.-
India relationship. The historic elections, as you have noted, 
this spring conferred an unprecedented mandate on Prime 
Minister Narendra Modi and his party, and also created an 
historic opportunity for the United States and India to re-
energize our relationship.
    Deputy Secretary Bill Burns and I traveled to New Delhi 2 
weeks ago to meet with Prime Minister Modi and key members of 
his cabinet. Secretary Kerry will travel soon to India to co-
chair the next round of our Strategic Dialogue, and he will be 
joined by Secretary of Commerce Pritzker in underscoring the 
vital role of our economic partnership.
    Mr. Chairman, the Obama administration's rebalance to Asia 
is a strategic bet on the consequential role of Asia's 4.3 
billion people in the 21st century and Asia's growing 
importance to America's security and prosperity. But, for Asia 
to comprise 50 percent of global GDP, as many project, its 
citizens and governments must make the right choices to foster 
sustainable and inclusive growth, to promote open and free 
trade, and to combat terrorism and extremism.
    In all of these areas, India has a vital role to play. Its 
rise as a regional and global power, its economic and strategic 
growth are deeply in the U.S. interest, as has been noted by 
members on the dais. Like the United States, India increasingly 
sees its future in a secure, connected, and prosperous Asia 
Pacific. We not only share democratic values, but also a deep 
interest in a peaceful and rules-based order.
    But, if India is to achieve its potential, it will need to 
address myriad economic and governance challenges. Much of the 
excitement that the new Modi government has generated in India, 
around the world, and, most notably, in the business community, 
has been around this idea of accountable and effective 
government that can unleash India's economic potential.
    While my colleague will discuss our economic and trade 
partnership in greater depth, I just want to underscore that 
our economies, our businesses, our universities, and our people 
can partner in helping India realize sustained and inclusive 
growth and enjoy a vision of shared prosperity.
    Our trade has already grown fivefold since the year 2000 to 
almost $100 billion annually. We can grow that fivefold again 
in the years to come. And we are committed to addressing the 
inevitable frictions over trade through dialogue and 
engagement.
    Our energy cooperation, one of the brightest areas of the 
partnership, is helping India meet its growing energy needs and 
creating opportunities for our businesses through contracts for 
export of American LNG and fulfilling the promise of delivering 
cutting-edge nuclear energy technology, as well as 
collaboration on clean energy solutions.
    But, as I noted at the outset, the locus of our convergent 
strategic interests is across the Asian landscape. When Prime 
Minister Modi invited regional leaders to his inauguration, he 
demonstrated his commitment to strengthening India's ties 
within its immediate region. And we see a partnership with 
India that spans east, west, north, and south, to advance our 
shared interests across the Indo-Pacific Region.
    Our collaboration on counterterrorism and homeland security 
has grown tremendously in the past several years and has 
already helped to bring to justice several of the terrorists in 
the Mumbai attacks. We are committed to further strengthening 
this robust cooperation in order to protect both our nations 
and both our peoples.
    Defense cooperation continues to play a vital role in our 
partnership, which Secretary Hagel's visit to India in early 
August will help to underscore. The breadth and depth of 
military exchanges and exercises have grown tremendously, and 
the Indian navy is participating in the RIMPAC Maritime 
Security Exercise in Honolulu for the first time this year.
    Additionally, as we speak today, we have begun our joint 
naval exercise, the Malabar, and this year, also, with the 
participation of Japan, this is a great example of our 
trilateral cooperation and a manifestation of the U.S.-India-
Japan trilateral dialogue.
    These military ties are complemented also by our growing 
defense trade. We are overcoming bureaucratic hurdles and 
paving the way to increase defense trade and potential for co-
production and co-development.
    Mr. Chairman, the true potential of this relationship was 
best characterized by Prime Minister Modi himself when he said 
to us 2 weeks ago that it is not just benefits to the Indian 
people and the American people, but that the true value of the 
U.S.-India relationship is that, when the world's oldest 
democracy and the world's largest democracy come together, it 
is the world that stands to benefit.
    We deeply appreciate the strong support of the U.S. 
Congress and of this committee as well as members in the Senate 
and the House and the Indian Caucus in advancing the U.S.-India 
partnership. We look forward to closely collaborating with you 
in the years ahead, as we forge an ever-increasingly closer 
partnership between our two countries.
    Thank you, Mr. Chairman, and I will conclude my remarks 
here and look forward to answering any questions that you or 
the committee may have.
    [The prepared statement of Ms. Biswal follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    

                              ----------                              

    Mr. Chabot. Thank you very much.
    Mr. Kumar, you are recognized for 5 minutes.

STATEMENT OF THE HONORABLE ARUN KUMAR, DIRECTOR GENERAL OF THE 
U.S. AND FOREIGN COMMERCIAL SERVICE AND ASSISTANT SECRETARY FOR 
   GLOBAL MARKETS, INTERNATIONAL TRADE ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Kumar. Chairman Chabot, Ranking Member Faleomavaega, 
and members of the subcommittee, thank you for the opportunity 
to speak about the Department of Commerce's engagement with 
India. I am honored to be here alongside my friend and 
colleague from the State Department, Assistant Secretary Nisha 
Biswal.
    The Department's International Trade Administration is the 
agency responsible for promoting U.S. exports, expanding 
markets overseas, and enforcing U.S. trade laws. Our efforts 
are driven by the needs of our primary constituency, the U.S. 
business community.
    In 2010, President Obama said the U.S.-India relationship 
will be ``one of the defining partnerships of the 21st 
century.'' While India is a large market, our commercial 
relationship remains underdeveloped relative to its potential. 
With the new government in charge, the timing may be right to 
improve our bilateral trade relationship.
    From 2000 to 2013, U.S.-India two-way trade has grown from 
$19 billion in goods and services to about $97 billion. Having 
recently returned from India, I will agree that the potential 
is, indeed, vast.
    ITA understands the value of exports and its direct 
correlation to job growth. Our staff in 100 locations across 
the country and in over 75 markets around the world is 
dedicated to helping companies enter new markets and expanding 
current ones.
    In India, our staffing is currently strategically placed 
with a total of seven posts, making it the largest footprint of 
any ITA operation outside the U.S. Furthermore, ITA's Advocacy 
Center, which coordinates U.S. Government commercial advocacy, 
helps U.S. companies win foreign government contracts. Between 
2010 and 2013, ITA recorded advocacy wins in India with 
estimated contract values of $5.2 billion.
    Another focus of ITA is to encourage inward investment, and 
the Obama administration created SelectUSA, the only U.S. 
Governmentwide program to attract, retain, and grow business 
investment in the United States. In 2012, India's stock of 
foreign investment into the U.S. totaled roughly $9 billion. 
Last year we hosted the first SelectUSA Investment Summit, and 
India was one of the largest delegations with 39 participants. 
Based on the success of this event, SelectUSA is organizing a 
second summit in March 2015.
    Doing business internationally can be risky, and India 
comes with its fair share of challenges. There are many areas 
that hinder us from deepening our trade relationship with 
India. U.S. companies need to be aware of these obstacles 
before entering the Indian market.
    These include protection and enforcement of intellectual 
property rights, localization requirements, high tariffs, and a 
difficult regulatory system that lacks transparency and 
predictability. ITA works to resolve these issues in a variety 
of ways.
    First, we lead the public-private U.S.-India Commercial 
Dialogue. The dialogue has been effective in facilitating 
information exchanges between government and private sector 
experts on standards and regulatory procedures.
    Second, ITA chairs working groups on biotechnology, life 
sciences, civil aviation, and infrastructure in the High 
Technology Cooperation Group, led by Commerce's Bureau of 
Industry and Security.
    We also support the State Department and USTR in the 
technical discussions on a U.S.-India bilateral investment 
treaty.
    ITA also organizes trade missions and trade events, 
provides market research, counseling, and customized support to 
companies looking to export to India. In 2015, the Department 
is organizing a trade mission to introduce U.S. firms to 
India's rapidly-expanding ports and marine technology market.
    On the domestic side, ITA ensures U.S. companies enjoy fair 
competition here at home. Our agency is responsible for 
administering the U.S. antidumping and countervailing duty 
laws. As of today, we have 22 orders in place against a variety 
of Indian products.
    As I have expressed throughout this testimony, the United 
States remains actively engaged in India. The Commerce 
Department and ITA will continue to expand our contacts with a 
new government in New Delhi, the state governments where so 
many decisions are now made, and with U.S. and Indian 
businesses in order to promote exports of U.S. goods and 
services.
    Today we just announced that Secretary Pritzker will be 
joining Secretary Kerry at the upcoming U.S.-India Strategic 
Dialogue scheduled for July 31 in Delhi. We will use this 
meeting and other opportunities to grow our commercial 
relationship.
    Thank you for the opportunity to speak with you today. I 
will welcome your questions.

    [The prepared statement of Mr. Kumar follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                  ----------                              

    Mr. Chabot. Thank you very much. We appreciate your 
testimony. Members will have 5 minutes now to ask questions, 
and I will begin with myself.
    Ms. Biswal, Secretary Kerry is scheduled to represent the 
U.S.-India Strategic Dialogue next week. As you are aware, in 
the past this dialogue has faced some challenges. Can you tell 
us what issues Secretary Kerry plans to discuss and how the 
administration will use this opportunity to engage with the new 
Modi administration on longstanding challenges in our trade and 
security relationship?
    Ms. Biswal. Thank you, Mr. Chairman.
    We do see a very important opportunity in the Strategic 
Dialogue which will take place in New Delhi next week to be 
able to relaunch the relationship and, also, put some 
extraordinary focus on some of the key opportunities, certainly 
the economic relationship and reinvigorating the trade and 
investment, looking at some of those issues, but also looking 
at energy cooperation, including civil nuclear energy, looking 
at the security relationship and counterterrorism.
    And then, we will have a visit shortly thereafter by 
Secretary Hagel to look at the defense relationship and also 
put some emphasis on where we want to go together in that 
aspect of the relationship.
    We also see a tremendous opportunity to engage with India 
on the region and looking at the transition in Afghanistan, 
looking at the broader Asia landscape, the relationship, and 
the trilateral dialogue that we have with Japan, and to focus 
on all of the different aspects of U.S. and India across the 
Asian landscape. So, we look forward to jump-starting all of 
those conversations during the Secretary's visit next week.
    Mr. Chabot. Thank you very much.
    Let me follow up, Ms. Biswal, on another issue. New Delhi 
has given Russia's aggression in Crimea implicit approval and 
strongly opposed sanctions on Moscow, calling Moscow's interest 
in Crimea ``legitimate.'' Can the U.S. trust India to be a 
reliable partner on significant geopolitical challenges, if for 
example, we can't get India's support on this growing crisis? 
And has the Malaysian airliner shootdown changed India's 
attitude at all in this particular area?
    Ms. Biswal. You know, I think that is an important issue 
and an important question. Clearly, India has its own history 
and its own relationships that guide its foreign policy. But 
our belief is that the more that we are able to closely consult 
on these critical issues and challenges that we face around the 
world, that we hope that we can bring closer together our 
perspectives and align efforts as much as possible.
    We do make the point to our Indian colleagues, as we do to 
friends around the world, about our perspectives, particularly 
with respect to Russian aggression in the Ukraine and the 
implications that that has. And we will continue to have those 
conversations with India and with other partners around the 
world.
    Mr. Chabot. All right. Thank you. As chair of this 
committee and as a Member of Congress, I would consider myself 
to be very pro-India, but their attitude on this matter with 
respect to Russia is very disappointing to say the least. I 
think a lot of other members would probably agree on that.
    Mr. Kumar, let me turn to you now. I only have 1\1/2\ 
minutes left. But the High Technology Cooperation Group, 
chaired by the Department of Commerce, is dedicated to 
promoting and facilitating bilateral high-technology commerce. 
Still, many U.S. businesses are facing severe barriers, such as 
patent revocations and compulsory licenses and copyright piracy 
and local manufacturing requirements, as I mentioned in my 
opening remarks. Has the Department of Commerce used this forum 
to address any of these issues to date? And could you comment 
in general on those issues?
    Mr. Kumar. Mr. Chairman, we use various conversations, 
various forms to address exactly these issues that concern our 
exporters, issues of intellectual property protection, 
localization issues, where our point of view is that India will 
actually do better by focusing on having competitive 
manufacturing as opposed to forcing localization. So, these are 
all topics that we discuss with them all the time, including 
during my visit last week.
    Mr. Chabot. Okay. Thank you. Thank you very much.
    I am going to stop at that point. I have a little bit of 
time left. But I am going to now recognize the gentleman----
    Mr. Connolly. Mr. Chairman, would you yield in your 25 
seconds?
    Mr. Chabot. I will be happy to.
    Mr. Connolly. I want to just totally associate myself with 
your remarks with respect to the Crimea. And I have to say to 
the Assistant Secretary, I assume the United States' position 
is this is sovereign territory that was illegally annexed by 
Russia, and I hope that was clearly conveyed to the new Indian 
Government. To me, this is not an ambiguous issue or something 
subject to debate. It is the sovereign territory of the Ukraine 
and remains so.
    I thank the chair.
    Mr. Chabot. I am happy I yielded to you.
    The gentleman from New York, who is the ranking member of 
the full committee, is recognized at this time for the purpose 
of making a statement.
    Mr. Engel. Well, thank you, Mr. Chairman. I will be very, 
very brief.
    First of all, I want to thank our two witnesses. Thank you 
both for your service to our country. It is very much 
appreciated.
    To Mr. Faleomavaega, welcome back. It is good to see you, 
Eni.
    And let me just say that I feel so strongly about the U.S.-
India relationship. I was an original member of the India 
Caucus back in 1990, when we formed it in Congress. And I have 
often felt that it is a shame that the United States and India 
through the years hadn't aligned itself more closely.
    I know during the Cold War there were some difficulties 
because India had a close relationship with the Soviet Union, 
and that kind of made it difficult. But now I really think that 
both countries should do whatever they can to work more closely 
together. Our interests are aligned, whether it involves the 
fight against terrorism or China's rise or just trade. I just 
think it makes so much sense.
    So, I wanted to thank you, Mr. Chairman, for holding this 
important hearing today. And you can certainly count on me as a 
friend of India. And I look forward when the Prime Minister 
comes here in September to greeting him. I think his election 
also presents us with a tremendous opportunity.
    So, again, thank you. Thank you both, and thank you, Mr. 
Chairman.
    Mr. Chabot. Thank you very much, Mr. Engel.
    I now recognize Eni Faleomavaega, the ranking member of 
this committee, for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Secretary Biswal, welcome back. Thank you for being here 
with us today. I have great hope that you will play an 
important part to work together to restore our U.S.-India 
relations.
    Your background as a former professional staffer of the 
House Foreign Affairs Committee and also the unique perspective 
you have as a member of the Indian-American community I believe 
is a long-awaited combination that will help bolster relations 
that have lacked for too long.
    Madam Secretary, what do you foresee in this 
administration's top priorities for strengthening our U.S.-
India relationship?
    Ms. Biswal. Thank you, Mr. Faleomavaega.
    You know, for India to be the power and reach the potential 
as a strategic power across the Asia region and across the 
globe, its first order of business will be revitalizing its 
economy. And we have a deep interest in partnering with India 
in that quest and partnering with Prime Minister Modi in that 
quest.
    I think that Prime Minister Modi comes in with strong wind 
at his back from the business community and confidence from the 
investor community about the plans that he has outlined and the 
vision that he has outlined for India's growth.
    We think that the United States, that American companies 
will bring a tremendous amount of technology and support to be 
able to help that, and we look forward to doing that.
    We also think that, as India's economy rises, that India 
will be increasingly a consequential player across the Asia 
region, and we think that that is aligned with our interests. 
We have shared goals and objectives, and we like to see that 
not only do we have shared goals and objectives, but that we 
work closely together in achieving those goals, because we will 
have far greater impact across the region and around the world 
when we align and work together.
    Mr. Faleomavaega. Secretary Kumar, your background is very 
impressive. You come to us with extensive global experience in 
the business world as an Indian-American financial consultant, 
highly-regarded advisor, and a Silicon Valley entrepreneur.
    You are also a poet. I love poems, too. My favorite poet is 
Rabindranath Tagore.
    Prime Minister Modi also is a poet, by the way. I believe 
poets view the world in a rare and distinct way. From your 
perspective, Secretary Kumar, both as a poet and as a business 
leader, what initiatives do you think the United States 
Department of Commerce should undertake to encourage private 
sector investment and to advocate for better market access for 
U.S. exporters?
    Mr. Kumar. Ranking Member Faleomavaega, thank you very much 
for that very interesting question, combining two different 
sides of my life.
    But let me address that really from the Department of 
Commerce. We are very active in India with about 70 people on 
the ground in seven offices, and we are focusing on areas that 
are of importance to India as they revitalize the economy, to 
use a term that my colleague has stated. So, our view is to 
work with the Indian Government and the private sector business 
in India and here to contribute to that journey.
    Mr. Faleomavaega. I know my time is getting short, Mr. 
Chairman, but it is certainly good to see Dana here with us 
also.
    You know, for the past years, I have always complained 
about the fact that we did not seem to pay attention to the 
Asia-Pacific Region from previous administrations. And I am 
concerned about it even in this administration. The fact that 
two-thirds of the world's population is in the Asia-Pacific 
Region, the fact that our economic interests are just as 
important and critical in dealing with the Asia-Pacific Region, 
and I am very concerned.
    I know my time is up, Mr. Chairman. Thank you. Appreciate 
it.
    Mr. Chabot. Thank you very much. The gentleman yields back.
    The gentleman from North Carolina, Mr. Holding, is 
recognized for 5 minutes.
    Mr. Holding. Thank you, Mr. Chairman.
    First, a housekeeping matter. Secretary Biswal, if you 
could please outline what the State Department has been doing 
with regards to the jailing of Amway CEO Bill Pinckney? I 
believe he has been in jail now for 2 months and being held 
without bail. So, if you could detail that concisely, please?
    Ms. Biswal. Thank you, Congressman.
    This has been an issue of very active engagement by the 
State Department, by our colleagues in the Commerce Department, 
and really across the U.S. Government. We have worked very 
closely and intensively with our colleagues in the Indian 
Government to address piece-by-piece all of the different 
aspects that stand in the way in achieving bail, hearing, and 
release on bail for Mr. Pinckney.
    We think that, while there may be concerns that the Indian 
law enforcement have, that no individual should be in jail for 
2 months without bail. We think that that needs to be remedied 
and rectified as soon as possible.
    We believe we are making some tremendous progress, and we 
hope that we will have some very good news on that front soon. 
We have been working closely with our colleagues at Amway to 
make sure that we understand all of that, as well as having 
consular visits to Mr. Pinckney regularly by our Consul General 
in Hyderabad to make sure of his welfare and make sure that his 
needs are being addressed.
    Mr. Holding. Good. Thank you. And if you could keep us 
abreast of any developments in that, I would appreciate it.
    Ms. Biswal. I would be happy to.
    Mr. Holding. I will address this to both of you regarding, 
first, to Secretary Biswal, what damage do you believe that the 
denial of a visa to then-Chief Minister Modi and the subsequent 
policy of the State Department that he has to apply in order to 
find out whether he would be approved or denied again, what 
damage do you think this has caused our relations with the 
Prime Minister?
    Now I realize that, as a matter of course, as Prime 
Minister, he is granted a visa as a head of state to come here. 
But I want to back up to the other issue of him as an 
individual being not granted a visa, kind of left in this 
limbo, especially considering the fact that he was cleared by 
the Supreme Court of India of any of the allegations made 
against him, which were the basis of the original denial of the 
visa.
    Ms. Biswal. You know, Congressman, I would say that the 
administration is very much looking ahead, looking forward, and 
looking to the future in terms of building a very strong 
partnership with the Prime Minister and with his team, and 
strengthening the relationship between the United States and 
India. We think that we are on a path to do that.
    The President called Prime Minister Modi on the day that 
election results were announced and promptly established----
    Mr. Holding. I realize that, but I don't believe the State 
Department has changed its position that, if Mr. Modi were to 
apply, he would have to apply for a visa to figure out if he 
was going to get a visa as an individual. Don't you think there 
ought to be an affirmative statement by the State Department or 
this administration that they recognize that he has been 
cleared of these allegations by the Supreme Court of India and 
that is lifted?
    Ms. Biswal. I would just note that when the President 
invited Prime Minister Modi and welcomed him to come to the 
United States, that he did so knowing that visa would be 
granted for him to be able to do that. And we look forward to 
that.
    I think that we have always made clear for any individual 
that visa issues are determined on a case-by-case basis. That 
is not unique to the situation with the Prime Minister.
    But we look forward to welcoming him here and----
    Mr. Holding. I do believe it is unique with Mr. Modi that 
he is the only individual ever to be denied a visa under the 
particular clause that he was denied a visa under.
    Ms. Biswal. And I would just say that, while that was the 
incident that occurred in 2005, that since then there has been 
no application and there has been no review or determination. 
And so, there has been no hypothetical basis on which to make a 
determination.
    But we have definitively said that we welcome the visit of 
the Prime Minister. And therefore, we don't believe that there 
is any further issue to be addressed with respect to that. I 
think the President has----
    Mr. Holding. One final--and I will throw this out to both 
of you--has there been any statement by the Modi 
administration, by the Prime Minister himself or people in the 
administration, about the intellectual property and any perhaps 
changes to the intellectual property system in India to further 
align it with our intellectual property protections here in the 
United States?
    Mr. Kumar. Congressman, I am not aware of any formal 
statements yet, but we have had conversations in my visit last 
week with a number of officials in the Indian Government about 
this topic and about a need to have a constructive dialogue on 
this topic.
    Mr. Holding. Well, if you could prospectively maybe keep us 
apprised of that, members of the committee who are also on the 
Judiciary Committee and follow these intellectual property 
issues closely, it would be helpful.
    Thank you, Mr. Chairman. I yield back.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired.
    The gentleman from California, Mr. Bera, is recognized for 
5 minutes.
    Mr. Bera. Thank you, Mr. Chairman.
    In my opening comments, I talked about the time for 
opportunity. As I think about the Indian-American community 
here--and my parents immigrated here in the 1950s--in the past 
decades the Indian-American diaspora has made remarkable 
accomplishments here in America in a country of opportunity.
    So, the excitement of the elections in India that occurred, 
you feel that same ripple of excitement about the opportunity 
to create this partnership. It is exciting. As the only Indian-
American Member of Congress, it is exciting to see two 
Assistant Secretaries sitting there from the community. So, 
this is a time of opportunity.
    I do think the administration has reached out immediately, 
has been very welcoming to the new Prime Minister, and really 
does reflect that opportunity. And vice versa, Prime Minister 
Modi ran on an agenda of reviving economic growth in India, 
building infrastructure in India, and realizing India's full 
potential as a partner.
    And a partnership is a two-way street. So, I think we are 
going to see a solid foundation. In the next 2 months it will 
be exciting with three Secretaries visiting, Secretary Kerry, 
Secretary Pritzker, and Secretary Hagel. I think that offers to 
lay a foundation for this economic relationship and the 
geopolitical relationship.
    And then, that leads into the September visit of the Prime 
Minister, and I am excited that I, along with our colleagues, 
have really pushed the Speaker to extend an invitation to a 
Joint Session of Congress, which I do think allows us to 
continue moving forward.
    My questions, I think I will start with Assistant Secretary 
Kumar. When I was in India last year talking to Indian 
multinationals, and as they visit here in Washington, DC, an 
untold story is the Indian foreign direct investment here in 
the United States and the jobs that those create.
    With the energy renaissance we are seeing here in the 
United States, many of the Indian companies that are 
manufacturing products to sell here in the domestic market 
really see an opportunity to make those investments and build 
those factories here in the U.S. From your perspective, what 
should we do to set the table for more of that foreign direct 
investment?
    Mr. Kumar. SelectUSA is a program that I mentioned. We are 
very active in India in promoting investment from India into 
the U.S. The current level of investment from India to the U.S. 
is about $9 billion. This covers a wide variety of industries.
    In fact, just to mention one from your State, we have a 
company that recently invested to build an electric two-
wheeler. It was developed in Palo Alto, and it is going to be 
manufactured in Ann Arbor, Michigan.
    Another example from the State of North Carolina is an 
Indian textile company is creating a unit in North Carolina 
that will create jobs in North Carolina.
    So, we are very encouraged by the interest of Indian 
companies. As they go global, they see the U.S. as the best 
place to invest. They see the U.S. as a place that provides a 
global platform to go to other countries. And I am looking 
forward to seeing more investment from India.
    This coming week, in fact, next week, before we go to 
Delhi, before Secretary Pritzker goes to Delhi for the 
Strategic Dialogue, she lands in Mumbai and will have a signing 
ceremony for an agreement with the Ex-Im Bank of India for them 
to support Indian companies investing in the United States. So, 
this is a great example of two-way economic relationships.
    Mr. Bera. Absolutely. And from our perspective, you know, 
when we look at India's demographics, it has a very young 
population. I think one of the assets we have is our system of 
higher education, our system of community colleges.
    And maybe I will direct this question to Assistant 
Secretary Biswal. I think there is a very real opportunity for 
our institutions of higher learning to help develop a similar 
system in India to educate/train that workforce to realize a 
very unique asset to India.
    Your thoughts?
    Ms. Biswal. Absolutely, Congressman. I would just note on 
your previous question I just want to make the comment that 
Indian investment in the United States has also resulted in 
over 100,000 jobs in the United States. So, I think that that 
is a powerful example of the two-way trade and the two-way 
benefits of this relationship.
    With respect to skills in higher education, this is a big 
priority for the Modi government. The Prime Minister raised 
this in his meeting with Deputy Secretary Burns. It is an 
active area of engagement through our higher-education 
dialogue. We are looking at not only how U.S. institutions of 
higher education, our universities, can partner with India, 
both in terms of Indian students studying in the United States 
as well as opportunities to expand access to education in 
India.
    The other major aspect that we are looking at is a 
community college initiative, how the very excellent community 
college system in the United States, which really expands 
access to higher education to so many millions of Americans, 
how that system can also partner with India to advance access 
to vocational education and skills for an Indian workforce that 
is increasingly going to be needed for India's economy to grow.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Florida, Mr. Clawson, is recognized for 
5 minutes.
    Mr. Clawson. Having invested tens of millions of dollars in 
India myself, I have a little bit of understanding of your 
challenges and the opportunities. I always felt glad that I had 
a good partner, Bharat Forge, because India scared me. The 
bureaucracy scared me. The regulations scared me. The currency 
controls didn't even seem fair. The import tariffs didn't seem 
fair. It felt like my capital could flow in, but my profits 
could not flow out. And it felt like product from India can 
flow out, but product into India cannot flow in easily. In 
today's world where capital generally has no barriers, it 
didn't feel like a totally modern system. And so, therefore, I 
was glad that I had a very good partner who could help us 
through it. Otherwise, we may not have made the investments.
    As I see a new regime take hold in India, one who feels at 
least at the start to have a modern view of the world and a 
modern view of accounting, is this administration now committed 
to eliminating some of the currency regulations, import 
barriers, bureaucracies, and controls that make business one-
sided and difficult for those that want to invest?
    Mr. Kumar. So, Congressman, this is an important topic for 
us. I was in India, as I mentioned, last week meeting with 
officials, which was the first time we were meeting with the 
new government. And in all our conversations we talked about 
the importance of a new business climate, a climate that 
addresses exactly those kinds of issues that you talked about.
    India is interested in more investment to create jobs, and 
these are exactly the kinds of points that we will be making in 
our conversations with the Government of India and with the 
private sector and other stakeholders in India.
    Ms. Biswal. So, I would just add to that to say, 
Congressman, that while we see some very hopeful signs, and the 
budget that was put out, the interim budget that was put out by 
the new government, was certainly a step in the right 
direction, that this is going to be a process that is going to 
have to unfold. And so, we look forward to continuing to see 
what steps the government takes to liberalize its economy and 
to attract greater trade, greater investment, which are all 
their stated objectives.
    Mr. Clawson. I am glad that India companies invest in the 
United States, and only private investment produces good-paying 
jobs. Governments do not. And capital votes by walking.
    And so, therefore, I would just like American businesses to 
have the same fair shake in India that Indian businesses have 
here. That has been the ongoing relationship that will be of 
interest to me, because I think fairness for our country--our 
trade deficit is hundreds of billions of dollars. And some of 
that is artificial and it doesn't have to be there.
    So, just as your capital is welcome here to produce good-
paying jobs in the U.S., I would like our capital to be welcome 
there, and there to be freedom of capital, so that both sides 
are on the same territory. And I ask cooperation and commitment 
and priority from your government in so doing. Can I have that?
    Ms. Biswal. I think your question is to the Indian 
Government, and we certainly share your sentiments. We 
certainly will advocate that on behalf of the U.S.----
    Mr. Clawson. Of course. And I am asking your opinion of how 
they view that.
    Ms. Biswal. Like I said, I think we have heard a lot of 
very positive signals, a lot of positive intentions, and we 
will be engaging both through the State Department, through the 
Commerce Department, through our USTR, through our Treasury 
Department, to make sure that we are engaging on those issues 
and looking for the concrete steps forward.
    Mr. Clawson. Okay. Let's see some progress.
    Ms. Biswal. Absolutely.
    Mr. Chabot. The gentleman is finished?
    Mr. Clawson. Yes.
    Mr. Chabot. Okay. Thank you very much.
    Mr. Clawson. I yield back.
    Mr. Chabot. The gentleman's time has expired.
    I assume that the members heard the bells ringing, but we 
just have two more members. So, we should be okay with 5 
minutes each. The gentleman from the Commonwealth of Virginia, 
Mr. Connolly, is recognized for 5 minutes.
    Mr. Connolly. I thank my chair.
    And I would just say to our newest colleague, I would be 
glad to take you to my district. Government does create high-
paying jobs. The three wealthiest counties in the United States 
are the wealthiest counties in the United States; they are all 
in Northern Virginia. Two of them are in my district. And it is 
because of the unique partnership between the Federal 
Government and the private sector in high tech, R&D, and 
defense contracting. The government most certainly does create 
good-paying jobs, at least in my part of the world. It isn't 
just the private sector.
    I might also add that an awful lot of what has transformed 
the world was entirely a government investment. The idea that 
the government can do nothing right is nonsense. Look at GPS 
technology, 100 percent a Federal investment; the internet, 100 
percent, called DARPANET, for 25 years a government-funded 
investment, not a dime of private sector investment. And it 
transformed the world.
    This notion that somehow the government can't do anything 
right or, you know, it needs to just get out of the way, is not 
true. And at least my private sector and my chambers of 
commerce recognize how valuable and vital that partnership is 
here in America, and I assume it is also true in India.
    Ms. Biswal, I wanted to give you a chance because, 
unfortunately, I took advantage of the 25 seconds left to the 
chairman. You wanted to comment on Crimea, and I wanted to give 
you that opportunity.
    Ms. Biswal. Only, sir, that we certainly agree 
wholeheartedly with your characterization and we continue to 
engage with our Indian friends to ensure that they understand 
our perspective. As I said, we strive to continue to bring our 
perspectives closer in alignment.
    Mr. Connolly. Thank you. I wanted to give you that 
opportunity and I appreciate it, especially since you had the 
good sense to go to the University of Virginia and you were a 
staffer. I, too, was a staffer.
    I also want to identify myself with the remarks of Ami 
Bera, my good friend from California, who talked about the 
U.S.-India relationship perhaps being the defining relationship 
of the 21st century. I couldn't agree more. I think that India 
is such an important potential partner, and we with India. I 
think it is actually potentially much more important than the 
Chinese relationship.
    We have lots in common. You know, we share a lot of 
language together. We have many common values. We certainly 
share democratic values in common.
    And I wonder if either of you would like to comment on 
that, because I think there are lots of prospects and I am very 
hopeful that, with the Modi visit here to Washington, we can 
cement some of those values and those relationships to move 
forward.
    Ms. Biswal. You know, fundamentally, India's rise and 
India's democratic growth, democratic development, is a very 
important aspect not only in terms of what it represents in 
terms of opportunities for partnership, but it is also very 
important in terms of the example that it sends to the other 
emerging and developing economies around the world that 
democratic development does result in strong growth, inclusive 
growth, and opportunities for these countries. And I think that 
India represents that, and India's success with that model is 
very much in the U.S. interest and that defines in many ways 
the core values of our partnership.
    Mr. Connolly. Mr. Kumar?
    And then, Mr. Chairman, I am going to yield the balance of 
my time to Ms. Gabbard.
    Mr. Kumar. Yes, I would just reemphasize the importance of 
India's growth to our people. If you look at the last few 
years, U.S. exports stagnated when India's growth stagnated. 
Years before that when India was growing, when it even passed 
double digits, U.S. exports to India grew significantly. So, we 
are very aggressive in India's growth because that directly 
helps our people here who can export more, and we create jobs 
as a result here.
    Mr. Connolly. Thank you. And I yield the balance of my time 
to Ms. Gabbard.
    Mr. Chabot. The gentlewoman from Hawaii is recognized.
    Ms. Gabbard. Thank you very much, Mr. Chairman, Mr. 
Connolly.
    Thank you both for being here. It is great to see you, as 
always.
    I will keep this brief. A lot of great points have already 
been brought up. My questions will really be more on the 
opportunity for us in the security partnership front with 
India.
    I think that recognizing the opportunity that exists with 
this change of leadership in India must be seized by us in a 
way that is very proactive and sensitive to what has occurred 
in the past, and done in a way that India understands that we 
greatly value the opportunity for both of our countries as we 
move forward.
    I am wondering if you can just speak a little bit about 
what the security cooperation is that we look forward to 
achieving, especially as we look at all of the things that are 
happening in the world and different relationships, but 
especially as we look at Afghanistan and the path going 
forward, and India's vested interest in the region, but also 
India's current presence already across the country of 
Afghanistan.
    Ms. Biswal. Thank you, Congresswoman.
    What I would note is that, shortly after we have the 
Strategic Dialogue, Secretary Hagel is also looking to go to 
India in early August. One of the key objectives there is to be 
able to engage with the Indian Government to map out their 
priorities in terms of where they want to see the defense 
partnership go and what we see as the potential, both short-
term and long-term, for that relationship.
    This is a defense partnership that has seen tremendous 
growth over the past decade, and we do more military exercises, 
for example, with India than with virtually any other country. 
Right now, as we speak, India is participating in the RIMPAC 
exercises in Honolulu for the first time, and we have the 
Malabar exercises, which are trilateral this year with India, 
the U.S., and Japan.
    We see great prospects for deepening that cooperation, but 
we also see that, as India seeks to create a defense 
manufacturing base and as India seeks to modernize its defense 
sector, that the United States is going to play a critical 
role. We seek to deepen that partnership, to look for 
opportunities for co-development and co-production in that 
range. Because as India's capacity grows, the ability of India 
to be a force for stability and security across the Asia-
Pacific grows as well, and that is something that we very much 
support.
    With respect to Afghanistan, Congresswoman, we have very 
close consultations with our colleagues in India about how we 
see that transition in Afghanistan unfolding. We had an 
opportunity to have some extensive conversations during the 
visit of the Deputy Secretary 2 weeks ago. And I know that that 
is a key aspect for the agenda for Secretary Kerry for his 
visit next week. We will continue to look for ways that the 
United States and India and the other countries in the region 
can work together for stability and security in Afghanistan, 
which is certainly in the Afghans' interest, but also in the 
interest of all the countries of the region.
    Ms. Gabbard. Quickly, and forgive me if you already talked 
about this, but what are the prospects of the timeline like for 
appointing a new Ambassador to India?
    Ms. Biswal. Well, as you know, it is going through its own 
internal process of the White House. This is a big priority for 
the administration, for the President. And so, we hope that we 
can conclude the internal process sometime soon, and then, it 
will be with the legislative branch for Senate confirmation.
    But this is a big priority. It was, therefore, a decision 
of the administration to place Ambassador Kathy Stephens there 
as charge'. She is one who brings great skill and experience 
and expertise, and particularly her experience in East Asia as 
Ambassador to Korea has been very welcome as well.
    Ms. Gabbard. Great. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Chabot. The gentlelady yields back.
    I would like to thank the panel for their very excellent 
testimony this afternoon. I would note that members will have 5 
days to revise their statements or submit questions in writing. 
And if there is no further business to come before the 
committee----
    Mr. Faleomavaega. Will the chairman yield? I'm sorry.
    Mr. Chabot. Yes, I would be happy to yield to the 
gentleman.
    Mr. Faleomavaega. I just want to personally thank you 
again, Mr. Chairman, for your leadership in having this hearing 
today, and certainly thank our witnesses for coming. I look 
forward to continuing a good working relationship with you, Mr. 
Chairman.
    Thank you.
    Mr. Chabot. I am committed to that for sure.
    And you are welcome.
    Thank you.
    We are adjourned.
    [Whereupon, at 5:09 p.m., the meeting was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record Notice 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



Prepared statement submitted for the record by the Honorable Edward R. 
 Royce, a Representative in Congress from the State of California, and 
                 chairman, Committee on Foreign Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
